                                               U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                    September 24, 2013
                                                                                              MEMORANDUM NO:
                                                                                                   2013-FW-1804


Memorandum
TO:           Cheryl Williams
              Director, Public and Indian Housing, 6APH

              //signed//
FROM:         Gerald Kirkland
              Regional Inspector General for Audit, 6AGA

SUBJECT:      The Kenner Housing Authority, Kenner, LA, Did Not Administer Its Housing
              Choice Voucher Program in Compliance With Portability Requirements


                                           INTRODUCTION

In accordance with our regional plan to review public housing programs and because of
weaknesses identified by the U.S. Department of Housing and Urban Development (HUD),
HUD’s Office of the Inspector General (OIG) reviewed the public housing programs of the
Kenner Housing Authority in Kenner, LA. Our overall objective was to determine whether the
Authority administered its public housing programs in accordance with regulations and guidance.
This memorandum addresses only the Authority’s Housing Choice Voucher program.

HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

                                METHODOLOGY AND SCOPE

The scope of our review of the Housing Choice Voucher program generally covered the
Authority’s portability practices, eligibility determinations, and associated housing assistance
payments for the period January 1, 2008, through October 31, 2012. We expanded the scope as
necessary to meet the objective. We conducted the review at the Authority’s administrative
office in Kenner, LA, the HUD field office, and our HUD OIG offices in Baton Rouge and New
Orleans, LA, from February through September 2013.



                                               Office of Audit (Region 6)
                                819 Taylor Street, Suite 13A09, Fort Worth, TX 76102
                                      Phone (817) 978-9309, Fax (817) 978-9316
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
To accomplish our objective, we performed the following:

    •   Reviewed relevant regulations, contracts, and HUD guidance;
    •   Reviewed the Authority’s administrative plan, dated April 2012;
    •   Reviewed applicable HUD monitoring reviews;
    •   Reviewed the initial files, held by the initial public housing agency, 1 for program families
        that ported into the Authority;
    •   Reviewed the Authority’s program tenant files;
    •   Tested and analyzed the Authority’s housing assistance payments and associated check
        registers;
    •   Coordinated with HUD staff; and
    •   Interviewed former and current Authority staff.

As of October 31, 2012, the Authority had 1,291 program vouchers, of which 204 were for
program families that ported into the Authority. Through coordination with our Office of
Investigation, we selected files for 8 of the 204 families, with disbursements totaling $289,840,
for review to determine the families’ eligibility. We selected the files for these 8 families due to
questionable portability practices. Through file reviews, we determined that the participant and
associated disbursement data were generally reliable.

                                              BACKGROUND

The Authority is a public housing agency established in 1964 to provide safe, decent, and sanitary
housing for low-income families and individuals. It is located at 1013 31st Street in Kenner, LA,
and manages 137 low-rent units and 1,307 2 program vouchers. The Authority is governed by a
five-member board of commissioners, which establishes policies under which it conducts
business. The board hires the executive director, who is responsible for the daily operations of
the Authority.

The Authority administers the program to low-income residents in Kenner, LA. For the
program, HUD funded and the Authority paid rental subsidies to property owners on behalf of
eligible families as shown in table 1.

                       Table 1: Subsidies to property owners
                        Fiscal year 3 Authorized funds Disbursed funds
                            2012              $7,523,351      $7,431,187
                            2011               7,816,144       7,816,144
                            2010               8,308,370       8,308,370
                            2009               3,599,447       3,599,447
                           Totals           $27,247,312      $27,155,148


1
    The initial public housing agency was the Saint Charles Parish Housing Authority.
2
    As of April 27, 2013, the Authority had a total of 1,307 vouchers.
3
    The Authority’s fiscal year is from July 1 through June 30.




                                                        2
In exchange for administering the program, HUD paid the Authority administrative fees totaling
more than $2.7 million from January 2008 to October 2012. Under the program’s portability
feature, HUD allowed eligible families with a program voucher to lease a unit anywhere in the
United States with a public housing agency operating a program.

At HUD’s request, the East Baton Rouge Parish Housing Authority began managing the
Authority’s program effective April, 8, 2013.

                                   RESULTS OF REVIEW

The Authority did not administer its program in accordance with HUD regulations. Specifically,
for families ported into its program, it

   •   Ported a family into its program after the family’s program participation had ended;
   •   Did not always issue vouchers;
   •   Did not meet billing deadlines;
   •   Did not properly execute housing assistance payments contracts;
   •   Did not always ensure that all household income was reported when performing income
       verifications;
   •   Did not always perform (1) housing quality standards inspections, (2) annual
       reexaminations, (3) unit rent reasonableness assessments, (4) background checks, and (5)
       property-owner screenings; and
   •   Did not properly validate program families through HUD’s Public and Indian Housing
       Information Center system, which provides program participant information.

This condition occurred because the Authority did not maintain adequate staffing levels and did
not train its program staff. In addition, the Authority’s board did not have a good understanding
of its roles and responsibilities for providing oversight. Further, the former executive director
did not provide strong leadership or planning for the Authority. As a result, the Authority spent
more than $180,000 for ineligible and unsupported housing assistance payments; and may have
an unjustified Section 8 Management Assessment Program (SEMAP) score for 2012.

The Authority Did Not Follow Program Requirements

HUD required the Authority to meet several requirements to provide program assistance to
families, such as certain portability requirements, voucher issuance to program families,
performance of income verifications, housing quality standards inspections, annual
reexaminations, and rent reasonableness assessments (see appendix B for detailed requirements).
However, a review of the files for eight families ported into the Authority determined that the
Authority did not always ensure that it met those requirements for five families.




                                                3
     •   Family 1 - The Authority allowed this family to port into its program although the
         family’s program participation had ended 2 months earlier. 4 Additionally, the Authority
         did not perform a housing quality standards inspection for the initial leased unit. 5 Thus,
         the $13,449 in housing assistance paid on behalf of this family was ineligible.

     •   Family 2 - For this family, the file did not include (1) annual reexaminations 6 to support
         continued eligibility for 2009 or 2010, (2) a housing quality standards inspection for the
         initial unit leased, 7 (3) a rent reasonableness assessment for the initial unit leased, 8 and
         (4) proper verification of household income as the head of household had a spouse whose
         income was not included when determining eligibility. 9 Therefore, this family’s
         eligibility could not be fully verified. Thus, the $56,134 in housing assistance paid on
         behalf of this family was unsupported.

     •   Family 3 - For this family, the file did not include a fully executed housing assistance
         payments contract 10 as it included only the landlord’s signature, not the signature of an
         Authority official. In addition, the file did not include a required rent reasonableness
         assessment for the initial unit leased. 11 Therefore, the Authority could not support the
         $38,450 in housing assistance paid on behalf of this family.

     •   Family 4 - For this family, although required to support eligibility, the file did not include
         (1) an annual reexamination for 1 year 12 to support continued eligibility 13 and (2) a full
         verification of household income as an adult household member’s income was not
         reported or considered. 14 Therefore, the Authority could not support $49,175 in housing
         assistance paid on behalf of this family.

     •   Family 5 - The file did not include the required annual reexaminations for 2009, 2010, or
         2012 to support continued eligibility; 15 thus, the $27,813 in housing assistance paid on
         behalf of this family was unsupported.

Other Documentation Issues Existed

Although they did not impact the housing assistance payments, the eight files reviewed contained
various other documentation deficiencies that demonstrated weaknesses in the Authority’s initial

4
     HUD Guidebook 7420.10G, section 13.1 allowed only eligible families with an issued housing choice voucher
     to exercise portability.
5
     24 CFR 982.305(a)
6
     HUD Guidebook 7420.10g, Voucher Program Guidebook-Housing Choice, section 12.2
7
     24 CFR 982.305(a)
8
     24 CFR 982.507(a)
9
     HUD Guidebook 7420.10g, section 5.2
10
     24 CFR 982.451
11
     24 CFR 982.507(a)
12
     The annual reexamination was missing for 2010.
13
     HUD Guidebook 7420.10g, section 12.2
14
     HUD Guidebook 7420.10g, section 5.2
15
     HUD Handbook 7420.10g, section 12.2




                                                       4
and reexamination practices. These deficiencies could impact eligibility. Table 2 shows the
deficiencies and the number of occurrences.


      Table 2: File deficiencies
                                                                     Number of files with
                             Deficiency                                 deficiencies
       Lack of sex offender registration check                                   8
       Landlords not prescreened before execution of
       housing assistance payments contract                                      8 16
       No criminal background checks                                             7 17
       No voucher issued                                                         6
       Failure to bill the initial public housing agency                         5
       in a timely manner

In addition, the Authority did not properly validate program families through HUD’s Public and
Indian Housing Information Center system, which provides program participant information.
Specifically, the system showed that of the eight families, one family was not listed under the
Authority’s program, and three were not listed under the initial public housing agency’s
program. Further, although the Authority received a self-assessed SEMAP score of 100 percent
for fiscal year 2012, the score may have been unjustified based upon the issues identified
throughout this report.

The Authority Did Not Maintain Adequate Staffing Levels, Train Staff, or Provide
Adequate Oversight

According to the Authority’s current and former staff, the identified errors were attributable to
the lack of training and low staffing levels. For example, the Authority’s housing manager stated
that she had received little training related to her job duties since starting work in January 2013.
In addition, the former program manager stated that she did not receive program training for
years, and that due to understaffing, there were periods when she performed the majority of the
program work. 18 The interim executive director acknowledged that program staff had not been
properly trained. Further, the interim executive director acknowledged the need for program
training and asserted that he had begun to ensure that staff received program training as needed.
In addition, HUD’s January 28, 2013 Public Housing Agency Recovery and Sustainability
Assessment report showed that the Authority’s board did not have a good understanding of its
roles and responsibilities for providing oversight and the former executive director did not
provide strong leadership or planning for the Authority.



16
     Our review did not identify any landlords who had been suspended or debarred.
17
     Our review determined that the head of household for only one family had a criminal record. However, the
     conviction was approximately 7 years prior to admittance into the Authority’s program; thus, would not have
     likely affected admission into the program.
18
     Of the eights files reviewed, the former program manager was the case manager for seven.




                                                         5
                                   RECOMMENDATIONS

We recommend that the Director, Office of Public Housing, New Orleans, LA,

1A.    Require the Authority to repay its program $13,449 from non-Federal funds for ineligible
       housing assistance paid on behalf of one family.

1B.    Require the Authority to support or repay its program $171,572 from non-Federal funds for
       unsupported housing assistance paid on behalf of four program families.

1C.    Require the Authority to implement adequate controls over its program, including
       adequate segregation of duties and staff program training.

1D.    Provide the Authority with technical assistance or training regarding the requirements of
       the annual contributions contract, HUD requirements, and the responsibilities of the
       executive director and the board.

IE.    Further review the Authority’s program administration and determine whether the
       recapture of any administrative fees provided for the period January 1, 2008, through
       October 31, 2012, or a reduction in future administrative fee payments is warranted.

1F.    Include in the Public Housing Authority Recovery and Sustainability Action Plan that
       outside oversight will remain in place until staff competency in the administration of its
       program improves.

1G.    Adjust the Authority’s SEMAP score in HUD’s Public and Indian Housing Information
       Center system considering the findings reported in this memorandum.




                                                6
Appendix A


                 SCHEDULE OF QUESTIONED COSTS
                  Recommendation
                      number             Ineligible 1/    Unsupported 2/

                    1A                    $13,449
                    1B                                           $171,572



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                              7
Appendix B
                                        CRITERIA
1.   Voucher issuance - 24 CFR 982.355 required the Authority to issue a certificate or
     voucher to the family after acceptance into its program.

2.   Housing assistance payments contract - 24 CFR 982.451 required the Authority to execute
     a housing assistance payments contract between itself and the landlord.

3.   Annual reexaminations - HUD’s Guidebook 7420.10g, section 12, required the Authority
     to reexamine the income and composition of program families at least annually. The
     annual reexamination determines the continued eligibility of the family and establishes the
     housing assistance payment to be made on behalf of the family.

4.   Housing quality standards inspections - 24 CFR 982.305(a) required the Authority to
     ensure that units had passed a housing quality standards inspection before executing a
     housing assistance payments contract.

5.   Rent reasonableness assessments - 24 CFR 982.507(a) required the Authority to determine
     rent reasonableness before approving a lease.

6.   Income verifications - HUD’s Guidebook 7420.10g, section 5.2, prohibited a family’s
     income from exceeding the HUD income limits.

7.   Sex offender registration checks - 24 CFR 5.905 required background checks to determine
     whether any family member applying for program assistance was subject to a lifetime sex
     offender registration requirement.

8.   Property-owner screenings - HUD’s Guidebook 7420.10g, section 11.2, required the
     Authority to determine whether property owners were eligible to participate in the program
     before executing a housing assistance payments contract and processing payments. This
     required the Authority to verify whether property owners had been debarred, suspended, or
     subjected to a limited denial of participation.

9.   Criminal background checks - 24 CFR 5.855 allowed the Authority to prohibit program
     admission of a family if it determined that any household member was engaged in or had
     engaged in, during a reasonable time before the admission, drug-related or violent criminal
     activity. The Authority’s April 1, 2012, administrative plan required the Authority to
     terminate a family’s assistance if any household member was engaged in or had a pattern
     of illegal drug use that interfered with the health, safety, or right to peaceful enjoyment of
     the premises by other residents.




                                                8
10.   Billing - Public and Indian Housing Notice 2011-3 required the Authority to complete and
      submit initial billing submissions to the initial public housing agency within 10 working
      days of the execution of the housing assistance payments contract but no later than 60 days
      following the expiration date of the family voucher issued by the initial public housing
      agency.




                                                9
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         10
Ref to OIG Evaluation   Auditee Comments


Comment 1




                         11
Ref to OIG Evaluation   Auditee Comments (continued)


Comment 1




                          12
Ref to OIG Evaluation   Auditee Comments (continued)


Comment 1




Comment 2




                          13
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority generally agreed with our conclusions and asserted that it made
            several changes and has taken various actions towards resolving the issues at the
            Authority such as, hiring additional staff and providing staff training. We
            recognize the Authority’s efforts in addressing the errors identified in the report
            and improving its processes.

Comment 2   For four of the six families discussed in the report, the Authority provided
            explanations and additional documentation as an attachment to its comments.
            Due to its size, we did not include this documentation in the final report. Based
            upon our review, we determined the following:

            For family 2, the Authority provided a fully executed housing assistance payment
            contract; therefore, we removed this as a cited issue in the report. However, the
            Authority did not provide documentation for the remaining issues. As such, the
            $56,134 made in housing assistance payments on behalf of this family remains
            unsupported.

            For family 4, the Authority asserted that an annual reexamination was not
            required since the participant changed units each year and provided
            documentation showing an annual reexamination effective August 1, 2012, head
            of household paystubs covering May 28, 2012 through June 24, 2012 and an
            enterprise income verification report dated August 9, 2012. However, the
            Authority did not provide the annual reexamination that was missing for 2010 and
            although the family changed units, HUD Guidebook 7420.10g, section 12.2 still
            required the Authority to perform an annual reexamination. In addition, the
            Authority did not provide income documentation for an additional household
            member identified during our audit. As such, the $49,175 made in housing
            assistance payments on behalf of this family remains unsupported.

            For family 5, the Authority asserted that an annual reexamination was not
            required and provided documentation showing that this family had partial records
            for 2010 and 2012 and a 30 day file notice for 2009 and 2010. However, the
            Authority made housing assistance payments on behalf of this family for every
            month in 2009 and 2010. As such, HUD required the Authority to perform an
            annual reexamination. Since the Authority did not provide the annual
            reexaminations for 2009, 2010 and 2012, the $27,813 for housing assistance
            payments paid on behalf of this family remains unsupported.

            For family 6, while the Authority provided a housing quality standards inspection
            form that was still not signed by both parties, it showed that the family’s unit had
            passed inspection. As such, we removed the issue and reduced the questioned
            costs by $9,829 for the housing assistance payments paid on behalf of this family.




                                             14
